APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______
No. 19-1269
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Plaintiff-Appellant,
v.
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Defendant-Appellee.
_______
COUNCIL OF PARENT ATTORNEYS AND ADVOCATES,
INC.; MID-MINNESOTA LEGAL AID; MINNESOTA
DISABILITY LAW CENTER; NATIONAL ALLIANCE ON
MENTAL ILLNESS MINNESOTA,
Amici on Behalf of Appellee(s).
_______
No. 19-1336
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Plaintiff-Appellee,
v.

2a
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Defendant-Appellant.
_______
COUNCIL OF PARENT ATTORNEYS AND ADVOCATES,
INC.; MID-MINNESOTA LEGAL AID; MINNESOTA
DISABILITY LAW CENTER; NATIONAL ALLIANCE ON
MENTAL ILLNESS MINNESOTA,
Amici on Behalf of Appellant(s).
_______
Appeals from United States District Court
for the District of Minnesota
_______
Submitted: March 10, 2020
Filed: June 3, 2020
_______
Before ERICKSON, GRASZ, and KOBES,
Circuit Judges.
_______
ERICKSON, Circuit Judge.
E.M.D.H., a student in St. Louis Park, Minnesota,
Independent School District No. 283 (the “District”),
is plagued with various psychological disorders.
E.M.D.H. and her parents, L.H. and S.D., filed a
complaint with the Minnesota Department of
Education, asserting the District’s failure to classify
E.M.D.H. as disabled denied her the right to a “free
appropriate public education (“FAPE”) under the

3a
Individuals with Disabilities Act (“IDEA”), 20 U.S.C.
§ 1400 et seq. After a seven-day evidentiary hearing, a
state administrative law judge (“ALJ”) concluded that
the District’s treatment of E.M.D.H. violated the
IDEA and related state special-education laws. The
District filed this action in federal court for judicial
review of the ALJ’s decision, as the IDEA authorizes.
See 20 U.S.C. § 1415(i)(2). The district court denied
the District’s motion for judgment on the
administrative record and granted, in part,
E.M.D.H.’s motion for judgment on the record,
modifying the award of compensatory education. We
affirm, in part, and reverse, in part, reinstating the
ALJ’s award for compensatory education.
I. Background
E.M.D.H. (“Student”) carries a plethora of
diagnoses: generalized anxiety disorder, school
phobia, autism spectrum disorder (with unspecified
obsessive-compulsive disorder traits), panic disorder
with associated agoraphobia, attention deficit
hyperactivity disorder (“ADHD”), and severe
recurrent major depressive disorder. The Student’s
problems became manifest early in her life. By age
four she was prone to tantrums and outbursts. By the
second grade she was in therapy. Even though the
Student had some attendance issues, she progressed
through and excelled in elementary school.
Middle school proved more challenging. By the fall
of her eighth-grade year, in 2014, the Student began
to be more frequently absent from school, telling her
mother that she was afraid to go. By the last quarter
of eighth grade, the Student was consistently absent
from school and was placed in a psychiatric daytreatment facility. The Student’s teachers were aware

4a
that her absences were due to her mental-health
issues and noted her schoolwork as incomplete rather
than entering failing grades. The District dis-enrolled
the Student in the spring of her eighth grade year.
Before the Student entered the ninth grade in the
fall of 2015, her parents alerted the ninth-grade
guidance counselor that the Student had not been
present for the latter part of eighth grade due to
anxiety and school phobia. Notwithstanding these
past difficulties, the Student was enrolled in the ninth
grade. The Student’s attendance was inconsistent and
then she quit going to school altogether and was
admitted to a psychiatric facility for treatment. By
November the District dis-enrolled her again.
In the spring of 2016, the District discussed
evaluating the Student as a candidate for special
education. The ninth-grade guidance counselor spoke
to the Student’s parents about an evaluation, leaving
them with the impression that decisions related to
special education were theirs to make, but noting that
if the Student availed herself of special-education
opportunities she would not be allowed to remain in
her honors classes. The parents did not request the
evaluation and one was not undertaken by the
District. The student was once again dis-enrolled that
spring.
The Student spent most of the summer in 2016 at a
treatment facility receiving therapy for her anxiety,
depression, and ADHD. The staff at the facility
noticed that while the Student struggled with
increased sensory awareness she was able to manage
her symptoms with assistance well enough to be
gradually reintroduced to her academic work and
daily routine. When the Student entered her tenth-

5a
grade year, the District developed a plan that allowed
her extra time on assignments, adjustments in
workload, breaks from class to visit the counseling
office, and the use of a fidget spinner. However, even
with these accommodations, the Student was unable
to maintain consistent attendance. After the first six
weeks, the Student attended almost no classes,
resulting in another dis-enrollment by the District.
In January 2017 school staff met with the parents to
reexamine the possibility of providing special
education. Once again, the parents were told that if
the Student was placed in special education, she
would be removed from her honors classes, effectively
placing her in course work that would not challenge
or stimulate her intellectually. At the end of the first
semester, the District had yet to perform a specialeducation evaluation. The Student attended only one
day during the second semester. The District disenrolled her again in February.
In April 2017, the parents requested that the
District evaluate the Student’s eligibility for special
education. The request came three days after the
Student had been readmitted to a psychiatric facility.
While at the facility, Dr. Denise K. Reese performed a
comprehensive psychological evaluation of the
Student, diagnosing her with major depressive
disorder, autism spectrum disorder, ADHD,
generalized anxiety disorder with panic and
obsessive-compulsive-disorder
features,
and
symptoms of borderline-personality disorder. Dr.
Reese concluded that the Student’s spate of mental
illnesses had “resulted in an inability to attend school,
increasing social isolation, and continued need for
intensive therapeutic treatment.”

6a
The Student’s problems continued unabated into her
junior year. She attended three partial days of the
eleventh grade in the District’s PAUSE program,
which is designed for students with emotional and
behavioral disorders. She ceased attending school
after September 11, 2017. At this point, the Student
had earned far less than half of the 46 credits
necessary to graduate. Most of the Student’s credits
were from instruction she received at treatment
facilities, with only two credits coming from regular
District coursework.
It was not until November 2017 that the District
provided the parents with a report evaluating the
Student’s eligibility for special education. The report
concluded that the Student did not qualify. The
District’s conclusion prompted the parents to hire a
team of doctors and other professionals to conduct an
independent educational evaluation of the Student.
The evaluation confirmed the Student’s diagnoses and
included a recommendation that she receive special
education that would allow her to complete rigorous
coursework while managing the symptoms that had
made doing so difficult, if not impossible, in the past.
The District rejected the recommendations, persisting
in its initial assessment, which led to the parents
filing a due-process complaint with the Minnesota
Department of Education.
The complaint alleged that the District violated the
IDEA and state law when it failed to identify the
Student as eligible for special education services and
did not provide her with such services. During the
due-process hearing, testimony was taken from 20
witnesses, and almost 80 exhibits were received. The
ALJ concluded the District acted unlawfully when it

7a
failed to: (1) identify the student as a child with a
disability, (2) conduct an appropriate specialeducation evaluation, (3) find the Student qualified
for special education, and (4) provide the Student a
FAPE. The ALJ ordered:
(1) the Student eligible for special education
and related services;
(2) the District to develop an Individualized
Education Plan (“IEP”) providing the
Student with a FAPE;
(3) the District to conduct quarterly meetings to
consider changes to the IEP;
(4) the District to reimburse the parents in an
amount over $25,000 for past diagnostic and
educational expenses they incurred; and
(5) the District to pay for compensatory services
in the form of private tutoring and the cost
of attendance of the Student’s psychiatrist
and private tutor at IEP meetings.
In its appeal to the district court, the District
requested leave to supplement the administrative
record. The court denied the motion to supplement
and affirmed the ALJ’s decision, except for the order
to pay for future private-tutoring services, which the
district court reversed. The parties cross-appeal.
II. Discussion
This case raises issues under both the IDEA and
related state laws, which exist “to ensure that all
children with disabilities have available to them a free
and appropriate public education that emphasizes
special education and related services designed to
meet
their
unique
needs.”
20
U.S.C.

8a
§ 1400(d)(1)(A). On appeal, the District asserts that
the court abused its discretion by denying its request
to supplement the administrative record. The District
also asserts that the court and ALJ erred when they
concluded that the District’s special-education
evaluation, eligibility determination, and child-find
activities were flawed and inadequate. Both the
District and the Student contest the court’s remedial
award. The District, on the one side, contends the
Student is owed neither reimbursement of her
expenses nor compensatory services while, on the
other side, the Student contends that the court erred
when it reversed the ALJ’s award of compensatory
private tutoring.
A. Record Supplementation
The
District
sought
to
supplement
the
administrative record by including two declarations
from District staff about the progress the Student had
made since the ALJ’s original order. Although the
IDEA allows a party to supplement the
administrative record in the district court, 20 U.S.C.
§ 1415(i)(2)(C)(ii), “[r]endering a decision on the
record compiled before the administrative agency . . .
is the norm,” W. Platte R-II Sch. Dist. v. Wilson ex rel.
L.W., 439 F.3d 782, 785 (8th Cir. 2006). A party
seeking to supplement the administrative record is
required to demonstrate a “solid justification” to
deviate from this norm. Indep. Sch. Dist. No. 283 v.
S.D. ex rel. J.D., 88 F.3d 556, 560 (8th Cir. 1996)
(quotation marks omitted). We review the district
court’s denial of the motion to supplement for an
abuse of discretion. Indep. Sch. Dist. No. 283, 88 F.3d
at 561.

9a
The proposed supplementation elucidating how the
Student was performing after the ALJ had entered his
order and the District had implemented the Student’s
IEP is immaterial to the merits of the Student’s due
process complaint. The complaint alleged that the
services the District offered the Student prior to the
initiation of an administrative proceeding were
insufficient. Evidence tending to show that the
Student was making progress with the educational
support she claims she was due all along would not
have aided the determination of whether the ALJ
properly found in favor of the Student. See W. Platte
R-II Sch. Dist., 439 F.3d at 785 (affirming denial of
supplementation where “additional evidence that the
District attempted to provide related to the progress
and status of [student] subsequent to the
administrative hearing”); Indep. Sch. Dist. No. 283, 88
F.3d at 560–61 (same). The district court’s decision
denying supplementation was not an abuse of
discretion. But even if it were, the abuse would have
amounted to harmless error. See Fed. R. Civ. P. 61;
Stringer v. St. James R-1 Sch. Dist., 446 F.3d 799, 805
(8th Cir. 2006).
B. IDEA Issues
We review the IDEA issues de novo, bearing in mind
that under the Act the courts “render an independent
decision based on a preponderance of the evidence in
the administrative record.” C.B. ex rel. B.B. v. Special
Sch. Dist. No. 1, 636 F.3d 981, 988 (8th Cir. 2011). We
give “‘due weight’ to the results of the administrative
proceedings and [do] not substitute [our] ‘own notions
of sound educational policy for those of the school
authorities which [we] review.’” Id. at 989 (quoting Bd.
of Educ. of Hendrick Hudson Cent. Sch. Dist. v.

10a
Rowley, 458 U.S. 176, 205–06, 102 S. Ct. 3034, 73
L.Ed.2d 690 (1982)); Indep. Sch. Dist. No. 284 v. A.C.
ex rel. C.C., 258 F.3d 769, 773–74 (8th Cir. 2001).
1. Eligibility Evaluation
Notably, Minnesota regulations require school
districts to provide the student regular and specialeducation services, whether or not the student is
disabled, when a student spends extended time at
home or in a medical facility being treated for illness.
Minn. Stat. § 125A.515; see also id. §§ 125A.15 and
125A.51. Nevertheless, once the parents requested
the District evaluate the Student for a disability, the
applicable regulations under the IDEA required the
District to “conduct a full and individual evaluation
. . . to determine if [she] is a child with a disability.”
34 C.F.R. § 300.301(a)–(b). The District was also
required to “ensure that . . . the evaluation [was]
sufficiently comprehensive to identify all of the child’s
special education and related services needs.” Id.
§ 300.304(c)(6).
Although the District contends that its evaluation
met the regulation’s requirements, its position cannot
be squared with the requirement for a “full” and
“sufficiently comprehensive” evaluation under the
IDEA or Minnesota law. Id. §§ 300.301(a),
300.304(c)(6).
Minnesota’s
special-education
regulations require that when a student is evaluated
for “emotional or behavioral disorders” and the “other
health disabilities” categories of disability, the
evaluation “must be supported by current or existing
data from,” among other sources, a “functional
behavioral assessment” and “systematic observations
in the classroom or other learning environment by a
licensed special education teacher.” Minn. R.

11a
3525.1329 subp. 1, 3 (emotional or behavioral
disorders), id. 3525.1335 subp. 1, 3 (other health
disabilities).
The District admits that it did not conduct either a
functional behavioral assessment or make systematic
observations of the Student. The District argues that
it should be absolved of this duty because the Student
was chronically absent, especially in the eleventh
grade when the District’s evaluation took place. We
acknowledge that while the Student’s absences might
have made a comprehensive evaluation more difficult,
the evidence does not support the conclusion that task
was impossible to undertake. A functional behavioral
assessment, which “identifies the antecedents,
consequences, and reinforcers that maintain the
behavior,” does not depend on the Student’s presence
in the classroom. Minn. R. 3525.0210 subp. 22. And
Minnesota’s regulations make plain that “systematic
observations” can be made both “in the classroom,”
and in “other learning environment[s]” as well. Id. at
3525.1329 subp. 3.
The record reflects that the District made no effort
to assess the Student in her virtual classroom, at
home, or in any one of the psychiatric facilities from
which she earned school credits. The District’s failure
to avail itself of these possibilities or develop another
way of gathering the necessary data is virtually
conclusive evidence that the District’s evaluation of
the Student was insufficiently informed and legally
deficient.
2. Eligibility Determination
The District’s evaluation, resting as it did on
incomplete data, concluded that the Student is not
eligible for special education. On appeal, the District

12a
stands by that conclusion and asserts that the
determinations of the ALJ and district court to the
contrary are erroneous. To be eligible for a FAPE that
includes special education and related services, a
student must be a “child with a disability.” 20 U.S.C.
§§ 1401(3), (9), 1414(d), 34 C.F.R. § 300.500(a), (c); see
Endrew F. ex rel. Joseph F. v. Douglas Cty. Sch. Dist.
RE-1, ––– U.S. ––––, 137 S. Ct. 988, 993–94, 197
L.Ed.2d 335 (2017). The IDEA defines a child with a
disability as “a child . . . with,” among other ailments,
a “serious emotional disturbance” or “other health
impairments . . . who, by reason thereof, needs special
education and related services.”1 20 U.S.C. § 1401(3).
A “serious emotional disturbance” is:
[A] condition exhibiting one or more of the
following characteristics over a long period of
time and to a marked degree that adversely
affects a child’s educational performance:
(A) An inability to learn that cannot be
explained by intellectual, sensory, or
health factors.
(B) An inability to build or maintain
satisfactory interpersonal relationships
with peers and teachers.

1

“Serious emotional disturbance” and “other health
impairments” are the federal analogs of Minnesota regulations
denominating “emotional or behavioral disorders” and “other
health disabilities,” respectively. Compare 34 C.F.R.
§ 300.8(c)(4)(i) (serious emotional disturbance), and id.
§ 300.8(c)(9) (other health impairment), with Minn. R. 3525.1329
(emotional behavioral disorders), and id. Minn. R. 3525.1335
(other health disabilities).

13a
(C) Inappropriate types of behavior or feelings
under normal circumstances.
(D) A general pervasive mood of unhappiness
or depression.
(E) A tendency to develop physical symptoms
or fears associated with personal or school
problems.
34 C.F.R. § 300.8(c)(4)(i).
impairment” means:

An

“other

health

having limited strength, vitality, or alertness,
including
a
heightened
alertness
to
environmental stimuli, that results in limited
alertness with respect to the educational
environment, that—
(i) Is due to chronic or acute health problems
such as asthma, attention deficit disorder or
attention deficit hyperactivity disorder,
diabetes, epilepsy, a heart condition,
hemophilia,
lead
poisoning,
leukemia,
nephritis, rheumatic fever, sickle cell anemia,
and Tourette syndrome; and
(ii) Adversely affects a child’s educational
performance.
Id. § 300.8(c)(9).
Under the District’s analysis the Student’s
symptoms are simply insufficient to constitute a
“serious emotional disturbance” or “other health
impairments.” However, the preponderance of the
evidence in the administrative record indicates the
Student has both conditions. For years the Student
has suffered from a panoply of mental-health issues
that have kept her in her bedroom, socially isolated,

14a
and terrified to attend school. Cf. Indep. Sch. Dist. No.
284, 258 F.3d at 776 (discussing eligibility for special
education where the facts “show[ed] that [student’s]
truancy and defiance of authority result[ed] from a
genuine emotional disturbance rather than from a
purely moral failing”). The Student was absent from
the classroom not as a result of “bad choices” causing
her “to fail in school,” for which the IDEA would
provide no remedy, but rather as a consequence of her
compromised mental health, a situation to which the
IDEA applies. Id. at 775.
The administrative record demonstrates the
Student has a serious emotional disturbance as she is
unable “to build or maintain satisfactory
interpersonal relationships with peers and teachers.”
34 C.F.R. § 300.8(c)(4)(i)(B). The Student also
displayed “[i]nappropriate types of behavior or
feelings under normal circumstances” and has been
living with a “general pervasive mood of unhappiness
or depression.” Id. § 300.8(c)(4)(i)(C), (D). The
evidence in the record also shows that the Student
suffers from “limited . . . vitality” and “a heightened
alertness to environmental stimuli” that are “due to
chronic or acute health problems,” including ADHD,
all of which are symptoms of “other health
impairments.” Id. § 300.8(c)(9). The Student’s
absences from the classroom has put her well behind
her peers in, among other things, earning the number
of credits needed to graduate, and has therefore
adversely affect[ed] her educational performance.” Id.
at 300.08(c)(9)(ii); see id. § 300.320(a)(2)(i)(A)
(requiring special education be “designed to . . . enable
the child to be involved in and make progress in the
general education curriculum”).

15a
Despite this evidence, the District maintains that
the Student is simply too intellectually gifted to
qualify for special education. The District suggests the
Student’s high standardized test scores and her
exceptional performance on the rare occasions she
made it to class are strong indicators that there are no
services it can provide that would improve her
educational situation. The District confuses intellect
for an education. See Florence Cty. Sch. Dist. Four v.
Carter ex rel. Carter, 510 U.S. 7, 13, 114 S. Ct. 361,
126 L.Ed.2d 284 (1993) (“IDEA was intended to
ensure that children with disabilities receive an
education that is both appropriate and free.”). The
IDEA guarantees disabled students access to the
latter, no matter their innate intelligence. More
practically, the positive results of the private tutoring
and online learning indicate that the nearly three
years where the Student foundered were not
inevitable but the direct result of insufficient
individualized attention under an appropriate IEP.
The record demonstrates that the Student’s intellect
alone was insufficient for her to progress academically
and that she was in need of special education and
related services.
This Student may not present the paradigmatic case
of a special-education student, but her situation does
not vitiate the District’s duty under the IDEA to
provide her with a FAPE. “The IDEA requires public
school districts to educate ‘a wide spectrum of
handicapped children,’” C.B. ex rel. B.B, 636 F.3d at
989 (quoting Rowley, 458 U.S. at 202, 102 S. Ct. 3034),
including those whose handicap is not cognitive. See
Indep. Sch. Dist. No. 284, 258 F.3d at 777 (“If the
problem prevents a disabled child from receiving

16a
educational benefit, then it should not matter that the
problem is not cognitive in nature or that it causes the
child even more trouble outside the classroom than
within it.”). In Independent School District No. 284,
for example, the court held that an educational
placement in a residential facility pursuant to the
IDEA was necessary for a student whose
psychological infirmities contributed to her truancy
and consequent lack of academic credit, even though
she “ha[d] no learning disability” and “tests reveal[ed]
[her] to be a shrewd problem solver.” 258 F.3d at 777–
78.
The Student is eligible for special education and a
state-funded FAPE like every other “child with a
disability.” 20 U.S.C. § 1401(3). This “specially
designed instruction,” whether “conducted in the
classroom, in the home, in hospitals and institutions,
[or] in other settings,” id. § 1401(29), must be
“reasonably calculated to enable [her] to make
progress” and “appropriately ambitious in light of
[her] circumstances,” Endrew F. ex rel. Joseph F., 137
S. Ct. at 999–1000.
3. Child-Find Obligation
The ALJ and district court determined that the
District breached its obligation to identify the Student
by the spring of her eighth-grade year as a child
eligible for special education. In addition to a FAPE,
an essential aspect of the IDEA is the requirement
that “children with disabilities . . . who are in need of
special education and related services, are identified,
located, and evaluated” by states. 20 U.S.C.
§ 1412(a)(3)(A); see Forest Grove Sch. Dist. v. T.A.,
557 U.S. 230, 245, 129 S. Ct. 2484, 174 L.Ed.2d 168
(2009) (describing this requirement as one of

17a
“paramount importance”). The District contends it
had no duty to identify the Student as eligible for
special education, at least not until the parents
requested an evaluation in the spring of the Student’s
junior year. The District also contends that if such a
duty existed the Student’s claim is barred by the
IDEA’s two-year statute of limitations. We are not
persuaded by the District’s arguments.
As early as the spring of 2015 the District knew that
the Student was missing significant time at school as
a result of her mental-health issues. The dean of
students at her middle school knew that the Student
was receiving day treatment at a psychiatric facility.
Confronted with this situation, the dean of students
met with the Student’s teachers to discuss the
situation, focusing on how to grade her in her classes
given her absences. Despite their knowledge that the
Student was suffering from mental-health issues that
impacted her ability to attend school, District staff did
not refer the Student for a special-education
evaluation
because
she
had
above-average
intellectual ability. The District continued to embrace
this decision until the parents requested an
evaluation near the end of the Student’s sophomore
year. Even if the District was confronted with an
unusual case marked by some confusion, in just the
same way that the Student’s eligibility for special
education was not foreclosed by her intellect, the
District’s child-find obligation was not suspended
because of her innate intelligence. The preponderance
of the evidence supports the conclusion that the
District breached its child-find obligation.
The District contends that even if it breached its
child-find obligation, the breach occurred in the spring

18a
of 2015 and the IDEA’s two-year statute of limitations
had run by the time the Student’s parents requested
a due-process hearing on June 27, 2017. See 20 U.S.C.
§ 1415(f)(3)(C) (“A parent or agency shall request an
impartial due process hearing within 2 years of the
date the parent or agency knew or should have known
about the alleged action that forms the basis of the
complaint . . . .”). 2 Assuming the parents knew or
should have known they had a child-find claim when
the Student was an eighth-grader, the District staff
responsible for identifying the Student in the ninth
and tenth grades likewise failed to fulfill their childfind obligation. In other words, the violation was not
a single event like a decision to suspend or expel a
student; instead the violation was repeated well into
the limitations period. Cf. In re: Mirapex Prods. Liab.
Litig., 912 F.3d 1129, 1134 (8th Cir. 2019) (noting that
“breaches of continuing or recurring obligations” give
rise to new claims with their own limitation periods).
Any claim of a breach falling outside of the IDEA’s
two-year statute of limitations would be untimely.
But, because of the District’s continued violation of its
child-find duty, at least some of the Student’s claims
of breach of that duty accrued within the applicable
period of limitation.
4. Relief
Having found violations of the IDEA, we turn to the
parties’ dispute regarding the appropriate relief. The
2

Under these circumstances, we do not need to reach the issue
of whether the IDEA’s statute of limitations represents an
occurrence rule or a discovery rule. See Avila v. Spokane Sch.
Dist. 81, 852 F.3d 936, 941–42 (9th Cir. 2017); G.L. v. Ligonier
Valley Sch. Dist. Auth., 802 F.3d 601, 611–13 (3d Cir. 2015).

19a
IDEA confers “broad discretion” upon hearing officers
and courts to order remedies that are “‘appropriate’ in
light of the purpose of the Act.” Sch. Comm. v. Dep’t
of Educ., 471 U.S. 359, 369, 105 S. Ct. 1996, 85
L.Ed.2d 385 (1985); see also 20 U.S.C.
§ 1415(i)(2)(C)(3) (“[T]he court . . . basing its decision
on the preponderance of the evidence, shall grant such
relief as the court determines is appropriate.”). The
District asserts the court improperly ordered it to
reimburse the parents the amount expended on: (1)
Dr. Reese’s comprehensive psychological evaluation,
(2) the independent educational evaluation, and (3)
and private educational services. The District also
asserts the court erred when it ordered quarterly IEP
meetings to take place until the Student graduates.
A review of the record demonstrates that the costs
incurred as a result of Dr. Reese’s work and that of
other professionals hired by the parents would have
been unnecessary but for the District’s failure to
timely identify and properly evaluate the Student as
a child in need of special education. We conclude the
award of these costs was within the broad discretion
of the ALJ and district court. See Sch. Comm., 471
U.S. at 370, 105 S. Ct. 1996 (“[W]e are confident that
by empowering the court to grant ‘appropriate’ relief
Congress meant to include retroactive reimbursement
to parents as an available remedy in a proper case.”).
Similarly, the parents’ retention of a private tutor was
the result of the District’s inaction in the face of the
Student’s debilitating mental illness and its adverse
effects on her academic progress. Id. (noting that
parents who pay for private education rather than
suffer a school’s insufficient IEP would score an
“empty victory” if a court subsequently ruled that they

20a
were right but that the school was not obligated to
reimburse them for the expenditures). Lastly, given
the difficulties the District had correctly diagnosing
the Student’s situation, as well as its prolonged
mishandling of her education, quarterly IEP meetings
are appropriate in order to assure that the Student’s
education remains on track.
The Student challenges the district court’s
conclusion that the ALJ’s award of compensatory
education in the form of private tutoring was
inappropriate. Although compensatory damages are
unavailable through the IDEA, compensatory
education is allowed. J.B. ex rel. Bailey v. Avilla RXIII Sch. Dist., 721 F.3d 588, 593 (8th Cir. 2013); see
also Minn. Stat. § 125A.091, subd. 21 (describing
compensatory educational services as any “direct and
indirect special education and related services
designed to address any loss of educational benefit
that may have occurred” as the result of a FAPE
denial). Here, the court reversed the ALJ’s award for
compensatory private tutoring because the record was
silent as to whether the District could provide
comparable services going forward. While we
commend the court’s impulse to limit the remedy and
taxpayer expense, by doing so in this case the court
failed to consider the purpose of a compensatoryeducation award: “imposing liability for compensatory
educational services on the defendants merely
requires them to belatedly pay expenses that they
should have paid all along.” Miener ex rel. Miener v.
Missouri, 800 F.2d 749, 753 (8th Cir. 1986)
(alterations and quotation marks omitted). Whether
the District is able to provide the Student a FAPE
prospectively is irrelevant to an award of

21a
compensatory education. Because of this backwardlooking nature, the purpose of any compensatoryeducation award is restorative–and the damages are
strictly limited to expenses necessarily incurred to put
the Student in the education position she would have
been had the District appropriately provided a FAPE.
See Indep. Sch. Dist. No. 284, 258 F.3d at 774
(explaining that a present or future obligation to
develop a new IEP is immaterial to the decision to
award compensatory education). The administrative
record supports the ALJ’s conclusion that the services
of a private tutor are appropriate until the Student
earns the credits expected of her same-age peers. We
therefore reinstate the ALJ’s award of these services,
to be provided only so long as the Student suffers from
a credit deficiency caused from the years she spent
without a FAPE.
III. Conclusion
We affirm, in part, and reverse, in part, reinstating
the ALJ’s award for compensatory education.

22a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Plaintiff,
v.
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Defendants.
_______
Civil No. 18-935 (DWF/LIB)
_______
January 15, 2019
_______
MEMORANDUM OPINION AND ORDER
_______
INTRODUCTION
In this action, Independent School District No. 283
(the “District”) requests judicial review and reversal
of a March 16, 2018 decision (the “Decision”) issued by
an administrative law judge (“ALJ”). (Doc. Nos. 1
(“Compl.”), 2 (“Decision”).) The Decision ruled in favor
of the parents of a high-school the student who lodged
a due process complaint under the Individuals with
Disabilities Education Act, 20 U.S.C. § 1400, et seq.
(“IDEA”). This matter is before the Court on cross

23a
motions for judgment on the administrative record.
(Doc. Nos. 85, 89.) For the reasons set forth below, the
Court grants Defendants’ motion in part, affirming
the ALJ’s decision but modifying the remedies.
BACKGROUND
Defendants E.M.D.H. (the “Student”), a minor, by
and through her parents and next friends, L.H and
S.D. (the “Parents”) (together “Defendants”) assert
that the Student, a sixteen-year old junior in high
school, has been denied her right to a free and
appropriate education under the IDEA. In short,
Defendants submit that the Student went years
without special education and related services
because she was not properly classified as having a
disability. The Parents hired a private educational
team to design and implement an individualized
education program. In June 2017, Defendants
initiated an administrative hearing to correct the
conditions and restore the Student’s education. On
March 16, 2018, the ALJ issued a 67-page decision in
favor of the Parents. The District now asks the Court
to reverse the Decision.
I.

Elementary School

The Student began attending school in the District
beginning in 2006. During elementary school, the
Student performed well academically, socially, and on
measures of self-management. In the fourth grade,
the Student’s teacher stated that she “is a joy to
teach,” “has a great sense of humor,” and “is a delight
to be around.” (Doc. No. 60-2 at 21.) From elementary
school through the time of the Decision, the Student
has never had a discipline referral noted in her record.
(Docs. No. 60-2 at 45-53, 60-3 at 1.) The Student has

24a
always excelled academically. For example, in the
fifth grade, the Student enrolled in an advanced math
class at the middle school.
The Student has had attendance problems since
elementary school though. During elementary school,
the Student averaged around eight absences per
school year. (Doc. No. 72-5 at 42-44.) Nevertheless, the
Student continued to perform well academically
during those years. (See Doc. No. 60-2 at 12-13, 17-26,
36-38, 41-44.)
Although the Student performed well in elementary
school, she has had behavioral meltdowns since she
was four years old. Her behavioral meltdowns were
characterized by hitting, biting, pinching, crying,
throwing objects, and banging on walls. (Doc. No. 617 at 4.) The meltdowns would last from a few minutes
to several hours, and would sometimes occur multiple
times per day or not at all for multiple weeks. (Id.)
Beginning in 2008, when the Student was in second
grade, the Student’s mother took the Student to the
Washburn Center for Children, where the Student
was diagnosed with adjustment disorder with mixed
disturbance of emotion and conduct, and received
therapy until discharged on July 23, 2009. Since 2008,
the Student has carried several diagnoses from
various health care professionals, and she is currently
diagnosed with: generalized anxiety disorder, school
phobia, unspecified obsessive-compulsive disorder
(“OCD”) (or autism spectrum disorder (“ASD”)), panic
disorder with agoraphobia, attention deficit
hyperactivity
disorder
(“ADHD”),
primarily
inattentive type, and severe recurrent major
depressive disorder. (Doc. No. 60-1 at 20.)

25a
II.

Middle School

The Student remained enrolled in the District for
middle school. In middle school, the Student
participated in the Gifted and Talented programming
and earned A’s and B’s in her classes. In sixth grade,
teachers commented on the Student’s performance:
“Gifted writer”; “insightful social studies student”;
and “Always prepared, and engaged, great end to the
year.” (Doc. No. 60-2 at 12-13.) In seventh grade,
teachers commented: “Hard worker”; “Great job
despite the absences”; “Showed lots of hard work this
spring’” and “Great participation.” (Id. at 17.) The
Student excelled on her sixth and seventh grade
standardized tests. The Student’s attendance issues
continued, however, with her missing 18 days of
school in sixth grade and 20 days in seventh grade.
When the Student began eighth grade in the fall of
2014, she told her mother that she was afraid to go to
school. From the beginning of the school year through
February 2015, she missed 18 days of school. (Id. at
12; Doc. No. 72-5 at 45.) In March 2015, the Student
stopped attending school altogether. (Doc. Nos. 60-1
at 26, 62 at 13.) On May 6, 2015, the Student
completed a psychiatric evaluation at Prairie Care
Medical Group in Edina, Minnesota. (Doc. No. 56-9 at
9.) The Student was diagnosed with depression not
otherwise specified and generalized anxiety disorder.
(Id.) On May 18, 2015, the Student was admitted to
the Prairie Care day treatment program; she was
discharged on June 12, 2015. (Id. at 17.)
When the Student stopped attending school, one of
her teachers brought her concern to a group of
teachers called the Orange Academy, which consisted
of ten people, including the Student’s teachers and

26a
Gina Magnuson, the Dean of Students. (Doc. No. 60-4
at 13.) The teachers discussed what to do about the
Student’s grades given she was not attending school.
(Id.) It was decided to give her “incompletes” as
opposed to failing grades. (Id.) The group also decided
not to refer the Student to the District’s Student
Intervention Teacher Team (“SITT”), which is one of
the District’s child-find activities. (See, e.g., id. at 32.)
The group decided not to refer the Student because
her grades were excellent when she attended school.
Staff at the middle school were aware of the Student’s
mental health issues and that the Student had been
admitted to the Prairie Care day treatment program.
As a result of her absences, the Student received no
fourth quarter credit or grades in eighth grade, and
the District dis-enrolled the Student that spring. (Doc.
No. 54-3 at 16; Doc. No. 54 at 5.)
III.

High School

When the Student began high school, her ninthgrade guidance counselor, Barb Nelson, offered to
meet the Parents to re-enroll the Student, and to meet
the Student to get to know her, but did not address
the issue of special education or evaluation. (Doc. No.
72-5 at 59.) Then, shortly after beginning ninth grade,
the Student’s attendance became irregular.
Eventually in November 2015, she was admitted
again to the Prairie Care day treatment program, and
the District again dis-enrolled her. (Doc. No. 55-6 at
36.)
The Student re-enrolled on December 15, 2015. On
April 26, 2016, the District discussed referring the
Student for a special education evaluation. (Doc. No.
60-4 at 7.) The District did not make a referral, but
instead Nelson called the Student’s mother to explain

27a
various options for special education placement for
the Student. According to the Parents, however,
Nelson did not inform the Student’s mother that
special education services would allow the Student to
continue taking honors courses. (Doc. No. 54 at 21.)
On June 6, 2016, near the end of the Student’s
freshman year, she was admitted to the Rogers
Memorial Hospital (“Rogers”) in-patient program in
Oconomowoc, Wisconsin. (Doc. No. 62-4 at 5.) At
Rogers, the Student took some education-related
assessments, including the WRAT-3, on which she
scored in the post-high school level for reading,
spelling, and math. (Doc. Nos. 62-9 at 21, 62-6 at 2, 75
at 9-10.) Also while at Rogers, the Student was
diagnosed with ADHD – Inattentive type, and was
prescribed Adderall XR. (Doc. No. 62-7 at 27.)
When the Student began her sophomore year, the
District created a Section 504 plan for the Student,
even though it had never conducted an evaluation of
her. The 504 plan involved providing the Student
extra time on assignments, adjustments to workload
to prevent falling behind, regular check-ins with
teachers, breaks from the classroom and a pass to the
counseling office, and the use of a fidget. (See Doc.
Nos. 60-5 at 72, 60-6 at 21.) Despite having a 504 plan,
the Student’s English teacher denied her extra time
to complete an assignment with which she was having
difficulty. (Tr. at 1025-27.) As a result of the Student’s
frustration with the English class, Defendants agree
with the Student’s tenth-grade counselor, Heidi
Cosgrove, and the school social worker, Marlee
Nirenstein, to switch the Student to an online English
course. (Doc. No. 60-5 at 69; Tr. at 1032-33, 1200.) By
December 5, 2016, however, the Student was again

28a
dis-enrolled by the District because she had missed 15
or more days of school in the semester. (Doc. No. 60-6
at 1.)
The Student and the Student’s mother met with
Cosgrove and Nirenstein in January 2017 to discuss
the possibility of special education services. Cosgrove
explained that if the Student were eligible for special
education, then she would need to be instructed in
academic and organizational skills in a structured
study hall setting. (Tr. at 1050-51, 1212.) Cosgrove
and Nirenstein also indicated that the Student would
be assigned a new social worker along with a case
manager. (Tr. at 1050-51.) Although Cosgrove and
Nirenstein did not expressly say it, the Student’s
mother understood them to be suggesting that special
education would not be an appropriate placement for
the Student because she is talented and gifted. (Tr. at
1448-49.) The District did not propose a special
education evaluation at the time; the Parents did not
request one. (Tr. at 1449.) Then, after attending only
the first day of the semester, the Student was
eventually dis-enrolled again on February 16, 2017.
On April 25, 2017, the Student was again admitted to
Rogers.
On April 28, 2017, the Parents requested that the
District evaluate the Student’s eligibility for special
education. On May 23 and 24, 2017, while still at
Rogers, Dr. Denise K. Reese conducted a
comprehensive psychological evaluation of the
Student. Dr. Reese diagnosed the Student with: major
depressive disorder, recurrent, in partial remission;
ASD; ADHD, predominantly inattentive presentation;
and generalized anxiety disorder with panic and OCD
features, features of borderline personality disorder.

29a
(See Doc. No. 59-6 at 10.) Dr. Reese also made several
educational recommendations to accommodate the
Student’s anxiety and ASD, including an
individualized curriculum, providing the Student a
resource room to go to when she is feeling anxious or
upset, and reducing requirements for the Student to
socialize in large groups during the academic day.
(Id.) The Student’s mother paid $ 2,430 for Dr. Reese’s
evaluation. (Doc. No. 56-1 at 4.)
In June 2017, the Student re-enrolled in the District
as a junior. On June 14, 2017, the District held an
evaluation planning meeting. (Doc. Nos. 60-6 at 57-61,
60-7 at 1-10.) The Student’s mother was provided a
notice of her parent rights under special education
law. (Doc. No. 54-6 at 22-39.) Meeting attendees
determined that the Student should be evaluated
under the categories of ASD, EBD, and other health
disability (“OHD”). The Parents’ counsel also
informed the District of Dr. Reese’s evaluation and
requested that the District rely upon the information
rather than have the Student retested in the same
areas. The District agreed to do so. The evaluation
plan also included three classroom observations of the
Student. (Doc. Nos. 60-6 at 57-61, 60-7 at 1-10.) The
District conveyed the plan to the Parents on June 20,
2017. (Id.) The Parents consented to proceed with the
evaluation. The District had 30 school days, or until
October 16, 2017, to complete the evaluation. (Id.)
On August 31, 2017, The Parents met with school
officials to discuss the Student’s junior year. School
officials presented four options for the Student: (1) full
days with advanced level classes; (2) full days with no
advanced level classes; (3) partial school days; and (4)
participation in the PAUSE program, which is an

30a
alternative learning environment supported by a
teacher and social worker. The District also proposed
the Student having access to PLATO, an online
learning platform through which the Student could
progress at her own pace and earn class credits. (Doc.
No. 61-6 at 5-7.) The Student and the Parents chose
to pursue the PAUSE and PLATO route.
On September 6, 2017, the Student began her junior
year attending PAUSE. Her teacher, Bob Logan,
indicated that the Student worked steadily on PLATO
from 10:00 a.m. to 11:30 a.m. without a break. (Doc.
No. 61-6 at 27-35.) The Student was organized,
focused, taking notes, but was also receptive, made
eye contact, and was pleasant and affirming with
Logan. (Id.) She sat with Logan and the social worker
over lunch, during which time she was conversational,
polite, and social. (Tr. at 162.) The Student worked
diligently that afternoon, but the next morning, she
went home sick after working for only an hour and a
half. (Id. at 163, 167-68, 174.) The Student returned
to PAUSE only one more time—the next day—during
which time she worked consistently on PLATO
assignments. (Id. at 169-170.) After the third day, the
Student did not return to PAUSE. At the Student’s
mother’s suggestion, Logan left voicemails on the
Student’s cell phone encouraging her to return to
PAUSE.
IV.

Special Education Evaluation

On October 16 and 24, 2017, District presented the
results of its evaluation to the Parents. (Doc. No. 61-6
at 8-11.) The District never completed a functional
behavioral assessment (“FBA”) of the Student. (Tr. at
899.) The District concluded that the Student did not
qualify for special education in the ASD, EBD, or OHD

31a
categories. (Doc. No. 61-6 at 8-11.) The Parents
disagreed. The Parents then requested that the
District consider applying the override criteria to the
District’s eligibility determination. Because the
District viewed the results as valid, the District
determined that the override criteria were not
applicable and that the Student did not need special
education. (Tr. at 807, 842-45, 849.)
The District determined the Student did not meet
the definition of EBD because she does not exhibit a
specific emotional or behavioral response that
adversely affects educational performance. (Doc. No.
at 55-7 at 22.) The District further concluded that the
Student’s intrapersonal impairment does not severely
interfere with her educational performance because,
in part, it has not manifested in the classroom. (Id.)
The District also determined that the Student did not
meet the definition of OHD because neither her
ADHD nor her anxiety adversely affects her ability to
complete educational tasks within routine timelines,
and that her ADHD and anxiety have not resulted in
a pattern of unsatisfactory educational progress. (Id.
at 26, 28.) On November 21, 2017, the District
provided the Parents with a final report, concluding
that the Student was not eligible for special education.
(Doc. No. 55-6 at 32.)
V.

Independent Educational Evaluation

On November 8, 2017, the Parents hired Dr. Richard
Ziegler, Dr. L. Read Sulik, and Wendy Selnes to
conduct various components of an independent
educational evaluation (“IEE”). On or about
November 29, 2017, the Parents hired Heather
Lindstrom from Beyond Risk Youth, LLC, to conduct
another component of the IEE.

32a
Dr. Ziegler conducted a neuropsychological exam.
(Doc. No. 56-2 at 14.) He diagnosed the Student with
generalized anxiety disorder, school phobia,
unspecified OCD, and severe recurrent major
depressive disorder. (Doc. No. 56-3 at 17.) Selnes
conducted a partial FBA after reviewing the Student’s
school records, treatment history, and observations of
the Student. (Id. at 36.) Selnes concluded that the
Student exhibited behaviors that “provide automatic
reinforcement relative to regulation of her internal
status as well as to escape aversive social or other
situations.” (Doc. No. 56-4 at 4.) Lindstrom assessed
the Student to design and implement an instructional
program for the Student. (Id. at 15.) Lindstrom also
began providing the Student with private academic
tutoring. (Id. at 28.) Lindstrom recommended that the
Student be exposed to more rigorous academic work,
gain access to post-secondary resources, and learn
how to filter and manage sensory input, among other
things. (Doc. No. 56-5 at 8.) Dr. Sulik conducted a
psychiatric assessment of the Student. As part of his
assessment, he identified several categories of
treatment objectives for the Student, including: (1)
reduce depression, anxiety, ADHD, and sleep and
fatigue symptoms; and (2) improve internal, physical,
external, and spiritual world wellness practices. (Doc.
No. 60-1 at 21.) Dr. Sulik also found that residential
treatment was not necessary at the time because the
Student was having success with her then-current
programming.
The Parents incurred fees for the IEE components
in the amounts of: $8,776.80 for Dr. Ziegler, (Tr. at
1137-38); $6,707 for Selnes (Id. at 1159); $2,250 for

33a
Dr. Sulik (Doc. No. at 60-1 at 37); and $3,475 for
Lindstrom, (Doc. No. 56-5 at 41).
Following the IEE, the District hired Dr. William
Dikel to assist the District staff “in clarifying the
nature and extent of [the Student’s] mental health
difficulties, especially as they related to her
educational issues.” (Doc. No. 63-9 at 13.) Dr. Dikel
described the Student’s history of diagnosis and
treatment as “complex, confusing and at times
contradictory,” but noted that there are a number of
pertinent issues. (Id. at 51.) Dr. Dikel noted that the
various mental health professionals treating the
Student appear to be doing so without communicating
with each other or referencing each other’s files. Dr.
Dikel also observed that the medications that the
Student has been prescribed may be contributing to
her symptoms of anxiety, mood abnormalities, and
chronic sleep problems. (Id. at 52.) In reviewing the
Student’s family situation, Dr. Dikel found that the
Student’s “dysfunctional family dynamics are not the
primary causal factor in [the Student’s] school refusal,
but may very well be contributing factors.” (Doc. No.
64 at 1.) Dr. Dikel ultimately recommended that the
Parents play a pivotal role in overseeing services
provided by medical, mental health, education, and
county services providers. (Id. at 3.) He also
recommended a more thorough assessment to assess
other potential diagnoses. (Id. at 5.)
VI.

Procedural History

On June 27, 2017, the Parents requested a special
education due process hearing with the Minnesota
Department of Education (“Department” or “MDE”).
(Decision at 1.) During a prehearing conference, the
ALJ and parties identified four issues pending for the

34a
hearing: (1) whether the District conducted an
appropriate evaluation of the Student, consistent with
34 C.F.R. §§ 300.304-.306 and Minn. R. 3525.2710; (2)
whether the Student is eligible for special education
and related services; (3) whether the District timely
identified the Student as a possible child with a
disability under the IDEA; and (4) whether the
District failed to provide the Student a free
appropriate public education (“FAPE”) because it did
not timely and appropriately identify and evaluate the
Student, determine her eligible, and provide her with
special education and related services designed to
enable her to make progress appropriate in light of
her circumstances. (Id.)
The parties agreed to continue the hearing to allow
the District time to complete its evaluation of the
Student, present a proposed individualized education
plan (“IEP”) to the Parents, and hold an IEP team
meeting.
(Id.) After
subsequent prehearing
conferences, the hearing began on January 16, 2018
and lasted seven days. (Id. at 4.) The ALJ heard
testimony from 20 witnesses—five called by the
Parents, and 15 called by the District. (Id.) The
Parents entered 38 exhibits into the record; District
entered 39 exhibits. (Id.)
On March 16, 2018, the ALJ issued the Decision,
requiring Plaintiff to immediately change the
Student’s educational placement by providing her a
FAPE consisting of special education and related
services, at public expense, until her graduation. As
part of the Decision, the ALJ reached the following
conclusions:
1. The School District failed to conduct an
appropriate evaluation of Student when it did

35a
not complete required assessments and failed
to reach appropriate conclusions about
Student’s eligibility. Parents are entitled to
reimbursement for their IEE as a matter of law.
2. Student is eligible for special education and
related services under the IDEA because her
condition meets the definition of serious
emotional disturbance/emotional behavioral
disorder (“EBD”) and other health impairment
(“OHI”)/other health disabilities (“OHD”).
3. The School District failed to timely identify
Student as a possible child with a disability
when Student refused to consistently attend
school during eighth grade as a result of her
deteriorating mental health.
4. The School District denied Student a FAPE
when it did not timely and appropriately
identify and evaluate her, determine her
eligible, and provide her with special education
and related services designed to enable her to
make educational progress appropriate in light
of her circumstances. Student is entitled to
services appropriate to address her loss of
educational benefit, including her lack of
credits toward graduating, and teaching her
skills to cope effectively with her disabilities.
(Id. at 4-5.) The District then initiated the present
action seeking judicial review of the Decision and to
reverse the findings therein. Both parties now move
for judgment on the administrative record. (Doc. Nos.
85, 89.)

36a
ANALYSIS
I.

Standard of Review

“A Motion for Judgment on the Record, in the
context of the IDEA, is a request that the Court enter
a final Judgment in what is essentially a bench trial
on a stipulated record.” Slama v. Indep. Sch. Dist. No.
258, 259 F. Supp. 2d 880, 882 (D. Minn. 2003). The
IDEA provides that a court reviewing a state
administrative decision “(i) shall receive the records of
the administrative proceedings; (ii) shall hear
additional evidence at the request of a party; and (iii)
basing its decision on the preponderance of the
evidence, shall grant such relief as the court
determines is appropriate.” 20 U.S.C. § 1415(i)(2)(C);
see also Sneitzer v. Iowa Dep’t of Educ., 796 F.3d 942,
948 (8th Cir. 2015) (noting that when reviewing
administrative decisions, “[t]he district court must
make its decision independently, based on a
preponderance of the evidence, as to whether the
IDEA was violated”). Thus, “the district court must
‘independently determine whether the child [in
question] has received a FAPE.’” K.E. ex rel. K.E. v.
Inep. Sch. Dist. No. 15, 647 F.3d 795, 803 (quoting
CJN v. Minneapolis Pub. Sch., 323 F.3d 630, 636 (8th
Cir. 2003)). At the same time, courts should give the
ALJ’s decision “due weight.” Id. (quoting Indep. Sch.
Dist. No. 283 v. S.D. ex rel. J.D., 88 F.3d 556, 561 (8th
Cir. 1996)). The Eighth Circuit has emphasized that
the court’s “review is not necessarily de novo,” and
that a court “should not substitute its judgment for
that of the school officials.” Sneitzer, 796 F.3d at 948.

37a
The “limited grant of deference” under this standard
“is appropriate in IDEA cases because the ALJ ‘had
an opportunity to observe the demeanor of the
witnesses and because a [district] court should not
substitute its own notions of sound educational policy
for those of the school authorities that [it] review[s].’”
K.E. ex rel. K.E., 647 F.3d at 803 (quoting CJN, 323
F.3d at 636). The Eighth Circuit has noted that “[t]his
somewhat ‘unusual’ standard of review is less
deferential than the substantial-evidence standard
commonly applied in federal administrative law.” Id.
(quoting Indep. Sch. Dist. No. 283, 88 F.3d at 561).
“Whether a child has received a FAPE is a mixed
question of law and fact.” Id. at 804. A court may
render a decision on the administrative record even
where “disputed issues of material fact” are present.
Indep. Sch. Dist. No. 283, 88 F.3d at 561. Here, the
burden is on the Plaintiffs as they are “challenging the
IEP” and “the outcome of the administrative . . .
decision.” Lathrop R-II Sch. Dist. v. Gray ex rel. D.G.,
611 F.3d 419, 423 (8th Cir. 2010); Blackmon ex rel.
Blackmon v. Springfield R-XII Sch. Dist., 198 F.3d
648, 658 (8th Cir. 1999).
II.

IDEA

States that accept federal funding under the IDEA
must make a FAPE available to every child with a
disability in their state. 20 U.S.C. § 1412(a)(1)(A). The
IDEA defines a FAPE as “special education and
related services that” meet specific statutory
requirements,
including
being
implemented
consistent with the student’s IEP. 20 U.S.C. § 1401(9).
As the Supreme Court recently reiterated, “[t]he IEP
is ‘the centerpiece of the statute’s education delivery
system for disabled children.’” Endrew F. ex rel.

38a
Joseph F. v. Douglas Cty. Sch. Dist. RE-1, ––– U.S.
––––, 137 S. Ct. 988, 994, 197 L.Ed.2d 335 (2017)
(quoting Honig v. Doe, 484 U.S. 305, 311, 108 S. Ct.
592, 98 L.Ed.2d 686 (1988)). An IEP is “a written
statement for each child with a disability that is
developed, reviewed, and revised in accordance with”
the IDEA’s requirements. 20 U.S.C. § 1414(d)(1)(A)(i).
The IDEA’s procedural requirements for developing a
student’s IEP “emphasize collaboration among
parents and educators and require careful
consideration of the child’s individual circumstances.”
Endrew F., 137 S. Ct. at 994. In addition, “the IDEA
requires that children with disabilities receive
education in the regular classroom ‘whenever
possible.’” Id. at 999 (citation omitted); see also 20
U.S.C. § 1412(a)(5)(A) (providing for education of
children with disabilities in the mainstream alongside
children without disabilities “[t]o the maximum
extent appropriate”).
The District argues the ALJ erred in six respects: (1)
concluding that the Student is eligible for special
education; (2) concluding that the District failed to
meet its child-find obligations; (3) concluding that
Defendants are entitled to reimbursement of IEE fees;
(4) concluding that Defendants are entitled to
reimbursement of Dr. Reese’s fees; (5) ordering, as
compensatory education, the District to pay for
private consultation and services for the Student until
she graduates; and (6) ordering the Student’s IEP
team to meet quarterly until she graduates.
A. Eligibility
The District argues that the Decision erroneously
faults the District’s eligibility evaluation for (1) failing
to conduct systematic observations of the Student in a

39a
classroom and (2) failing to conduct an FBA. The ALJ
reached the conclusion that the “District did not
conduct all of the state-required assessments required
for examining whether a child is eligible under the
category of EBD and OHD. The School District did not
conduct any systematic observations in the classroom
or other learning environments and an FBA. The
School District failed to alternatively use the team
override provision.” (Decision at 22.)
Federal and state law establish standards for
evaluations for determining eligibility under the
IDEA. Under Minnesota law, school districts must
“use technically sound instruments that are designed
to assess the relative contribution of . . . behavioral
factors.” Minn. R. 3525.2710, subp. 3(B)(3). With
respect to EBD, evaluators must include data from:
(1) clinically significant scores on standardized,
nationally normed behavior rating scales; (2)
individual
administered,
standardized,
nationally normed tests of intellectual ability
and academic achievement; (3) three
systematic observations in the classroom or
other learning environment; (4) record review;
(5) interviews with parent, pupil, and teacher;
(6) health history review procedures; (7) a
mental health screening; and (8) functional
behavioral assessment.
Minn. R. 3525.1329, subp. 3. With respect to OHD,
evaluators must include data from:
(A) an individually administered, nationally
normed standardized evaluation of the pupil’s
academic performance; (B) documented,
systematic interviews conducted by a licensed
special education teacher with classroom

40a
teachers and the pupil’s parent or guardian; (C)
one
or
more
documents,
systematic
observations in the classroom or other learning
environment by a licensed special education
teacher; (D) a review of the pupil’s health
history, including the verification of a medical
diagnosis of a health condition; and (E) records
review.
Minn. R. 3525.1335, subp. 3. The law also provides a
team-override provision, by which evaluators may
override a determination that a student does not meet
specific requirements for eligibility. Minn. R.
3525.1354, subp. 1. Schools districts use the team
override to avoid situations where a student may not
meet specific eligibility requirements under state law,
but meets requirements under federal law.
The Court concludes, as did the ALJ, that the
District’s evaluations of the Student in the fall of 2017
were deficient under Minnesota law. The District
concedes that it did not conduct any systematic
observations of the Student in the classroom or an
FBA. Although the Student’s absenteeism was the
primary
barrier
to
conducting
systematic
observations, it has also been one of the most visible
symptoms of the Student’s disability.
Recognizing the issue of eligibility as central to this
case, the ALJ and both parties have undertaken
thorough analysis of the question. Federal law
provides that a “child with a disability” is one who is
evaluated as meeting at least one disability category
listed in the IDEA and who, by reason of disability,
needs special education and related services. 34
C.F.R. § 300.8(a)(1). One category of disability under
federal law is emotional disturbance, which

41a
means a condition exhibiting one or more of the
following characteristics over a long period of
time and to a marked degree that adversely
affects a child’s educational performance: (A)
An inability to learn that cannot be explained
by intellectual, sensory, or health factors; (B)
An inability to build or maintain satisfactory
interpersonal relationships with peers and
teachers; (C) Inappropriate types of behavior or
feelings under normal circumstances; (D) A
general pervasive mood of unhappiness or
depression; (E) A tendency to develop physical
symptoms or fears associated with personal or
school problems.
Id. § 300.8(c)(4)(i). Another category of disability
under federal law is other health impairment (“OHI”),
which
means having limited strength, vitality, or
alertness, including a heightened alertness to
environmental stimuli, that results in limited
alertness with respect to the educational
environment, that—(i) Is due to chronic or
acute health problems such as asthma,
attention deficit disorder or attention deficit
hyperactivity disorder, diabetes, epilepsy, a
heart condition, hemophilia, lead poisoning,
leukemia, nephritis, rheumatic fever, sickle cell
anemia, and Tourette syndrome; and (ii)
Adversely affects a child’s educational
performance.
Id. § 300.8(c)(9). “Special education” is defined as
“specially designed instruction, at no cost to the
parents, to meet the unique needs of a child with a
disability, including—(i) Instruction conducted in the

42a
classroom, in the home, in hospitals and institutions,
and in other settings. . . .” Id. § 300.39(a)(1). “Specially
designed instruction” is defined as
adapting, as appropriate to the needs of an
eligible child . . . the content, methodology, or
delivery of instruction—(i) To address the
unique needs of the child that result from the
child’s disability; and (ii) To ensure access of the
child to the general curriculum, so that the
child can meet the educational standards
within the jurisdiction of the public agency that
apply to all children.
Id. § 300.39(b)(3). Such specially designed instruction
results in an “education program [that is]
appropriately ambitious in light of [the child’s]
circumstances,” helps a child “[p]rogress through this
[education] system,” and allows the child “the chance
to meet challenging objectives.” Endrew F., 137 S. Ct.
at 999-1000.
The Court concludes, as did the ALJ, that the
Student is eligible for special education and related
services under both federal and state eligibility
guidelines. Specifically, the Student meets the federal
and state definitions of both EBD and OHD. The
Students’ mental health issues—her several
diagnoses as of May 2017—appear to have directly
impacted her attendance at school. As the ALJ noted,
there is no evidence in the record that anything but
her mental health issues caused her absenteeism.
(Decision at 49.) The District contends that the
Student’s mental health issues and absenteeism did
not adversely impact her educational performance
because she excelled academically when she attended
school. For the same reasons the ALJ provided, the

43a
Court also rejects this argument. (See id. at 50.)
Specifically, special education is designed to help
students with disabilities progress in the general
curriculum. See 34 C.F.R. § 300.320. No one disputes
that the Student excelled on standardized tests;
neither can anyone dispute that her absenteeism
inhibited her progress in the general curriculum.
Accordingly, giving due weigh to the ALJ’s
treatment of this issue, the Court affirms the ALJ’s
conclusions regarding eligibility.
B. Child-Find Obligations
The District next challenges the ALJ’s conclusion
that the District did not fulfill its child-find
obligations, arguing that Defendants’ child-find claim
is time-barred and that, nevertheless, the District
complied with child-find requirements.
In order that all children with disabilities may
receive a FAPE, the IDEA imposes a “child find”
obligation on school districts. See 20 U.S.C.
§ 1412(a)(3). Pursuant to this obligation, districts
have a duty to ensure that:
All children with disabilities residing in the
State . . . regardless of the severity of their
disabilities, and who are in need of special
education and related services, are identified,
located, and evaluated and a practical method
is developed to determine which children with
disabilities are currently receiving needed
special education and related services.
20 U.S.C. § 1412(a)(3)(A); see also Minn. R.
§ 3525.0750. The IDEA defines children with
disabilities in part as those children who “need[ ]
special education and related services.” 20 U.S.C.

44a
§ 1401(3)(A)(ii). The Supreme Court has recognized
the child find obligation as being of “paramount
importance.” Forest Grove Sch. Dist. v. T.A., 557 U.S.
230, 245, 129 S. Ct. 2484, 174 L.Ed.2d 168 (2009). And
“[c]ourts around the country, including this one, have
recognized that the IDEA’s child find requirement
imposes an ‘affirmative duty’ on school districts.”
R.M.M. ex rel. T.M. v. Minneapolis Pub. Sch., Special
Sch. Dist. No. 1, Civ. Nos. 15-1627, 16-3085, 2017 WL
2787606, at *5 (D. Minn. June 27, 2017) (collecting
cases).
The IDEA statute of limitations requires a parent to
request a due process hearing within two years of “the
date the parent . . . knew or should have known about
the alleged action that forms the basis of the
complaint . . . .” 20 U.S.C. § 1415(f)(3)(C); 34 C.F.R.
§ 300.511(e). The same two years are allotted to the
parent to file an administrative complaint alleging a
violation of the IDEA. 20 U.S.C. § 1415(b)(6)(B); 34
C.F.R. § 300.507(a)(2); see also D.K. v. Abington Sch.
Dist., 696 F.3d 233, 244 (3d Cir. 2012). Under this
framework, it is undisputed that because the Parents
first requested a due process hearing on June 27,
2017, Defendants’ claims would normally be limited to
the District’s conduct after June 27, 2015. See D.K.,
696 F.3d at 244.
The IDEA provides, however, that the statute of
limitations “shall not apply to a parent” in two
situations: (1) where the parent was prevented from
requesting
a
hearing
due
to
“specific
misrepresentations by the local education agency that
it had resolved the problem forming the basis of the
complaint”; or (2) where the local educational agency
withheld information from the parent that the law

45a
requires be provided to the parent. 20 U.S.C.
§ 1415(f)(3)(D). Before the ALJ, Defendants argued
that at least the second of these exceptions applied
here, noting that the Parents were not provided with
notice of their procedural safeguards, as required by
the IDEA, until June 2017. See 20 U.S.C. § 1415(d)
(requiring a copy of the procedural safeguards be
made available to the parents of a child with a
disability).
On review of the record, the Court finds that the
statute of limitations should not apply here because
the District failed to provide an adequate and
complete notice of procedural safeguards as required
by the IDEA and by applicable regulations. Although
the District discussed special education with the
Parents prior to June 2017, the evidence shows that
the Parents did not first receive a notice until that
time. By withholding this critical information from
the Parents, the District “denied [the Parents] the
knowledge necessary to request a due process
hearing.” El Paso Indep. Sch. Dist. v. Richard R., 567
F. Supp. 2d 918, 945 (W.D. Tex. 2008); see also D.G. v.
Somerset Hills Sch. Dist., 559 F. Supp. 2d 484, 492
(D.N.J. 2008) (applying the withholding exception
because the school district failed to provide a proper
notice of procedural safeguards).
The District argues that even if the child-find claims
are viable, the District fulfilled its obligations. As
previously noted, the ALJ determined that the
District’s efforts were insufficient to discharge its
child-find duties. The record shows that the District
was aware, no later than the spring of 2015, that the
Student had stopped attending school because of her
anxiety. The District admirably and appropriately

46a
engaged with the Parents concerning the Student’s
absences in eighth grade, including seeking
information from the Student’s therapists and other
mental health providers. This involvement, however,
is precisely what gave the District the reason to
identify the Student as a possible child with a
disability. By not acting on that information, the
Court concludes, as did the ALJ, that the District
failed to fulfill its child-find obligations with respect
to the Student.
Based on the foregoing, and giving due weight to the
ALJ’s analysis, the Court affirms the ALJ’s
conclusions regarding the District’s child-find
obligations.
C. Remedies
In reviewing an ALJ’s decision, the Court has broad
discretion to “grant such relief as the Court deems
appropriate.” 20 U.S.C. § 1415(i)(2)(C)(iii); see also
C.B. ex rel. B.B. v. Special Sch. Dist. No. 1, 636 F.3d
981, 987 (8th Cir. 2011) (reviewing challenge to award
of reimbursement of private school tuition). The
Supreme Court has held that a district court’s
authority to grant “appropriate” relief includes “the
power to order school authorities to reimburse parents
for their expenditures on private special education for
a child if the court ultimately determines that such
placement, rather than a proposed IEP, is proper
under the [IDEA].” Sch. Comm. of Burlington v. Dep’t
of Ed., 471 U.S. 359, 369, 105 S. Ct. 1996, 85 L.Ed.2d
385 (1985).
1. IEE and Dr. Reese Costs
The District argues that the ALJ erred in ordering
reimbursement of outside professionals hired by the

47a
Parents to complete the Student’s IEE because the
underlying conclusions supporting the ALJ’s order on
reimbursement were erroneous. (See, e.g., Doc. No. 88
at 57.) For example, the District explains that it did
not conduct required classroom observations because
the Student was at home nearly every day and rarely
attended school, and that the absence of classroom
observations and a functional behavior assessment
were harmless because the Student did not meet the
other eligibility criteria.1
The Court disagrees. As the ALJ concluded, the
Parents are entitled to reimbursement for IEE fees
because the District’s evaluation was deficient under
Minnesota law. See 34 C.F.R. § 300.502(b).
The District also challenges the ALJ’s conclusion
that the Parents would not have incurred the cost of
Dr. Reese’s evaluation if the District had timely
complied with its child-find obligations. (Id. at 59.)
The District instead contends that Dr. Reese’s
evaluation was optional, that the Parents agreed to
have it done, and that an outside psychological
evaluation is not a required “related service” even if
the District had earlier identified the Student as
entitled to special education. (Id.) Had the District
evaluated the Student for special education at an
earlier date, it says, a qualified school psychologist on
staff could have administered all of the assessments
that Dr. Reese conducted. (Id.)

1

The District evaluated the Student, but found no eligibility,
for possible special eligibility in ASD, EBD, and OHD, and within
the OHD category, evaluated the Student for ADHD and
Generalized Anxiety Disorder.

48a
The District is correct that a qualified school
psychologist likely could have administered all of the
assessments that Dr. Reese conducted. Simply put,
however, the District did not timely evaluate the
Student for special education, and the Parents
incurred the costs of Dr. Reese’s evaluation as a
result. The Court concludes, as did ALJ, that
Defendants are entitled to reimbursement of the
amounts they paid Dr. Reese for the May 2017
assessment.
2. Private Services Costs
The District argues that the ALJ exceeded his
authority by ordering, as compensatory education, the
District to pay for private consultation and future
services because there was no evidence that the
District staff are incapable of providing the mandated
services. Defendants argue that the ALJ correctly
concluded that they are entitled to retrospective and
prospective private school expenses and other forms
of compensatory education services. (Doc. No. 92 at
40.)
Defendants correctly state that “[r]eimbursement
for private school expenses may be an appropriate
remedy whenever a school district has failed to
provide a FAPE to a student, including when it has
failed in its child find obligations, because those
primary duties are so important.” (Id. (citing 20
U.S.C. § 1415(i)(2)(C)(iii); Sch. Comm. of Burlington,
471 U.S. at 369-70, 105 S. Ct. 1996; Franklin v.
Gwinnett Cty. Pub. Sch., 503 U.S. 60, 66, 112 S. Ct.
1028, 117 L.Ed.2d 208 (1992); C.B., 636 F.3d at 981).)
Here, although there is evidence in the record that the
District failed to provide the Student a FAPE, there is
scant evidence concerning whether the District can

49a
provide a FAPE prospectively. Through the time of
the Decision, the parties fundamentally disagreed as
to whether the Student was a child with a disability
entitled to special education and related services. As
a result, there was no evidence in the record as to
whether the District can provide the type of specially
designed education that Student is entitled to moving
forward. In sum, the present record does not support
an award of prospective compensatory education in
the form of payment for private service providers.
Based on the foregoing, and based on the Court’s
eligibility and child-find conclusions, the Court orders
reimbursement of past private services provided by
Heather Lindstrom, consistent with the Decision. (See
Decision at 28 ¶ 5.) At this time, however, the Court
reverses the provision in the Decision that orders
“[f]uture payments for Lindstrom’s services must be
paid directly to Lindstrom, based on invoices provided
by Lindstrom to the School District. All payments
must be made within 30 calendar days of the School
District’s receipt of an invoice.” (Id.)
3. Quarterly Meetings
The District asks the Court to set aside the ALJ’s
order requiring the Student’s IEP team to meet
quarterly, arguing that although “IEP Team meetings
are important,” “[t]he frequency of meetings should be
driven by the circumstances at the time, not the rigid
application of a quarterly meeting schedule. (Doc. No.
88 at 62.) The District further notes that the IDEA
already mandates that IEP Team meetings be held
“not less than annually,” 34 C.F.R. § 300.324(b)(i), and
that special educators’ time is limited and valuable.
(Doc. No. 88 at 62-63.) Giving due weigh to the ALJ’s
consideration of this remedy, and noting the ALJ’s

50a
first-hand assessment that the District “unreasonably
protracted this matter,” the Court finds that requiring
the Student’s IEP team to meet quarterly is an
appropriate remedy in light of all of the
circumstances.
ORDER
Based on the foregoing, and on all of the files,
records, and proceedings herein, IT IS HEREBY
ORDERED:
1. Plaintiff Independent School District No. 283’s
Motion for Judgment on the Administrative Record
(Doc. No. [85]) is DENIED.
2. Defendants E.M.D.H., a minor, by and through
her parents and next friends, L.H and S.D.’s Motion
for Judgment on the Administrative Record (Doc. No.
[89]) is GRANTED IN PART, AS MODIFIED
ABOVE.
LET
JUDGMENT
ACCORDINGLY.
Dated: January 15, 2019

BE

ENTERED

s/Donovan W. Frank
DONOVAN W. FRANK
United States District
Judge

51a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Plaintiff,
v.
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Defendants.
_______
Civil No. 18-935 (DWF/LIB)
_______
April 25, 2018
_______
MEMORANDUM OPINION AND ORDER
_______
INTRODUCTION
In this action, Independent School District No. 283
(the “District”) requests judicial review of a March 16,
2018 decision (the “Decision”) issued by an
administrative law judge (“ALJ”). (Doc. Nos. 1, 2.) The
Decision ruled in favor of the parents of a high-school
student who lodged a due process complaint under the
Individuals with Disabilities Education Act, 20 U.S.C.
§ 1400, et seq. (“IDEA”). The District seeks reversal of
the ALJ’s Decision and presently moves for a

52a
Temporary
Restraining
Order
(“TRO”)
and
Preliminary Injunction Staying Enforcement of
Administrative Decision pending resolution of the
current litigation. (Doc. Nos. 1, 6.) The District’s
motion is granted as set forth below.
BACKGROUND
Defendants E.M.D.H. (the “Student”), a minor, by
and through her parents and next friends, L.H. and
S.D. (the “Parents”) (together “Defendants”) assert
that the Student, a sixteen-year old junior in high
school, has been denied her right to a free and
appropriate education under the IDEA. In short,
Defendants submit that the Student went years
without special education and related services
because she was not properly classified as having a
disability. The Parents hired a private educational
team to design and implement an individualized
education program. In June 2017, Defendants
initiated an administrative hearing to correct the
conditions and restore the Student’s education.1
After a seven-day hearing, the ALJ issued the
Decision, requiring Plaintiff to immediately change
the Student’s educational placement by providing her
a free appropriate public education consisting of
special education and related services, at public
expense, until her graduation. The District then
initiated the present action seeking judicial review of
the Decision and to reverse the findings therein. The
1

The facts relevant to the merits of the case are fully recited
in the Decision. There does not appear to be a dispute as to the
material facts, but rather Plaintiff challenges the legal
conclusions reached by the ALJ. The Court will refer to facts as
relevant in its discussion below.

53a
District presently seeks to stay the following portions
of the Decision pending resolution of this action:2
1. The requirement that the District
reimburse the Parents $21,208.80 for costs
associated with independent educational
evaluations conducted by privately hired
evaluators Dr. Read Sulik (the Student’s
treating psychiatrist), Dr. Richard Ziegler (a
pediatric neuropsychologist), Wendy Selnes (a
behavior analyst), and Heather Lindstrom (a
special education teacher working for the
Minnesota Department of Corrections with a
side-business known as “Beyond Risk Youth”);3
2. The requirement that the District
reimburse the Parents $2,430 for the
assessment conducted in May 2017 by Dr.
Denise Reese, a private, licensed psychologist;
3. The requirement that the Student’s IEP
team meet at least quarterly following the
implementation of the Student’s initial IEP;
4. The requirement that Dr. Sulik and
Lindstrom be invited to all quarterly IEP
meetings and be reimbursed for their time
participating in such meetings;
5. The requirement that the District
reimburse the Parents for the cost of a private

2

The School District represents that it seeks to stay the
hearing officer’s award of compensatory education, not the
portion of the hearing decision that directly involves the
Student’s educational placement.
3

The Court previously stayed portions of the Decision pending
a ruling on the present motion. (Doc. No. 19.)

54a
program provided by Lindstrom since January
5, 2018 and for future services;
6. The requirement that the Student’s IEP
include a placement in a “program identical” to
the program currently provided by Lindstrom;
and
7. Any alleged requirement that a “program
identical” to Lindstrom’s program must also
include involvement by Dr. Ziegler and Selnes
in IEP meetings from now until the Student
graduates.
On April 13, 2018, after this action and the present
motion were filed, the District sent a proposed
individualized education program (“IEP”) to the
Parents. On April 16, 2018, the Parents consented to
the proposed IEP. (Doc. No. 38 (“Second Reynolds
Decl.”) ¶¶ 12, 15 & Ex. 1(“IEP”).) The IEP was
implemented in response to the Decision, and services
under the IEP are anticipated to begin the week of
April 23, 2018. (Second Reynolds Decl. ¶ 15.) The IEP
outlines the services to be provided the Student by
fully-licensed District employees within the
boundaries of the District. The District submits that
it informed Defendants’ outside providers that their
contracted services were on hold pending the outcome
of this action or that the District would be in contact
if a contract for services became necessary. (Id. ¶¶ 1314.)
ANALYSIS
I.

The IDEA and the “Stay–Put” Rule

The IDEA codifies the goal that “all children with
disabilities have available to them a free appropriate
public education that emphasizes special education

55a
and related services designed to meet their unique
needs.” 20 U.S.C. § 1400(d). In addition, the IDEA
mandates that participating states extend various
procedural protections and administrative safeguards
to disabled children, parents, teachers, school
officials, and educational institutions. 20 U.S.C.
§ 1415. For example, under the IDEA, parents are
entitled to notice of proposed changes in their child’s
educational program and, where disagreements arise,
to an “impartial due process hearing.” Id. § 1415(b)(2)
& (f). Once the available avenues of administrative
review have been exhausted, aggrieved parties may
file a civil action in state or federal court. Id.
§ 1415(i)(2).
The IDEA also includes a “stay-put” provision,
under which a disabled student “shall remain in the
then-current educational placement of the child”
during the pendency of any judicial review, unless
“the State or local educational agency and the parents
otherwise agree.” Id. § 1415(j). The “stay-put”
provision ensures an uninterrupted continuity of
education for a disabled child pending any
administrative or judicial review. See Light v.
Parkway C–2 Sch. Dist., 41 F.3d 1223, 1227 (8th Cir.
1994). Further, the regulations implementing the
IDEA provide:
If the hearing officer in a due process hearing
conducted by the SEA or a State review official
in an administrative appeal agrees with the
child’s parents that a change of placement is
appropriate, that placement must be treated as
an agreement between the State and the
parents for purposes of [the general rule].

56a
C.F.R. § 300.518(d). See also Lawrence Cty. Sch. Dist.
v. McDaniel, Civ. No. 17-4, 2017 WL 4843229, at *2
(E.D. Ark. Oct. 26, 2017) (explaining that a hearing
officer’s decision in favor of a student constitutes the
student’s “then-current” placement).
Defendants argue that the Student’s “current
educational placement” is that which is set forth in
the Decision. The District, however, argues that the
injunctive relief sought does not implicate the “stayput” provision because the District does not seek to
change the Student’s educational placement, but
rather seeks to stay the expenditure of public money
to pay private providers for both past and future
services. The District points out that the parties have
agreed to an IEP and that the portion of the Decision
that directly involves the Student’s educational
placement is not subject to the stay.
The District has cited to authority that at least calls
into question whether a challenge to an award of
compensatory education, as opposed to the “then
current educational placement,” falls within the
purview of the “stay-put” provision. See, e.g., Board of
Educ. v. Maez, Civ. No. 16-1082, 2017 WL 3610546, at
*4 (D. N.M. 2017) (“There is some question as to
whether the [stay-put] provision applies to
compensatory education—or in this case, payment for
future services.”). Regardless of whether the “stayput” provision applies to the provision of
compensatory education, the “stay-put” provision can
be overcome at the equitable discretion of a district
court. See Honig v. Doe, 484 U.S. 305, 327-28 (1988).
The “stay-put” rule was not intended to eliminate the
availability of traditional injunctive relief. See Board
of Educ. v. Maez, 2017 WL 3610546, at *3. Therefore

57a
the Court evaluates the District’s request for
injunctive relief below.
II.

The District’s Request for Injunctive
Relief

A movant must demonstrate circumstances that
justify a stay pending judicial review, and as with
other temporary injunctive relief, the Court weighs
the following factors: (1) the threat of irreparable
harm to the moving party; (2) the balance between the
alleged irreparable harm and the harm that granting
the injunction would inflict on the other party; (3) the
public interest; and (4) the likelihood of the moving
party’s success on the merits. See Dist. of Columbia v.
Masucci, 13 F. Supp. 3d 33, 39 (D.D.C. 2014); see also
Dataphase Sys., Inc. v. C L Sys., Inc., 640 F.2d 109,
113 (8th Cir. 1981). The factors must be balanced to
determine whether they tilt toward or away from
granting injunctive relief. See West Pub. Co. v. Mead
Data Cent., Inc., 799 F.2d 1219, 1222 (8th Cir. 1986).
The Court has considered the parties’ respective
arguments made in their papers and during the
hearing on this matter. After careful consideration,
the Court concludes that the District is entitled to a
stay of portions of the Decision pending a final
resolution of this lawsuit. First, the Court concludes
that the District has demonstrated irreparable harm.
Absent a stay, the District will be required to
reimburse the Parents roughly $24,000 for past
services provided by private evaluators and an
assessment conducted by a private licensed
psychologist. In addition, the District will be required
to reimburse the Parents for future costs for private
professionals’ participation in quarterly IEP
meetings, as well as the cost of the private program

58a
provided by Lindstrom outside of the District. The
District has submitted evidence that the costs of these
private services could total $175,000 to $200,000 in a
single year. (Doc. No. 16 (“Reynolds Decl.”) ¶ 13.)
While financial harm is ordinarily reparable because
it is compensable by monetary damages, the
circumstances here support a contrary conclusion.
Without a stay, the District could be required to pay
over $200,000 to cover both past and prospective
private services. Even with a multi-million dollar
operating budget, this is not an insignificant amount
of money, particularly because the District maintains
that it is capable of providing these services using its
own licensed and qualified special education staff. (Id.
¶ 16.)
The District also argues that even if it ultimately
prevails, there is no mechanism to recoup money
spent to pay for private services. The District has cited
to several cases supporting this contention. See, e.g.,
Masucci, 13 F. Supp. 3d at 41 (holding that school
district would be irreparably harmed absent a stay
because the district would be unable to recoup costs
paid for private tuition and related private services);
Board of Educ. v. Maez, 2017 WL 3610546, at *6-8
(enjoining an order requiring $5,000 of private speech
therapy for student because the district could not
recoup the funds and because it would have to pay for
duplicate services it could provide). While the Court
does not necessarily agree with the notion that it could
not order reimbursement of the funds, it concedes that
it would be difficult to ask the Parents to reimburse
the District for the costs of an ALJ’s erroneous
decision. See Masucci, 13 F. Supp. 3d at 41 (noting
circuit court’s statement that “[i]t would be absurd to

59a
imagine a trial court ordering parents to reimburse a
school system for the costs of a hearing examiner’s
erroneous placement of their child”). The potential of
not being able to recoup the costs, in combination with
the fact that the District will be forced to pay a high
amount for duplicate services that it can provide, tips
this factor in favor of a stay.
Second, the Court concludes that the balance of the
harms weighs in favor of a stay. For services already
provided and paid for, a stay will delay
reimbursement to the Parents for several months.
This delay is not irreparable. In addition, the Court
finds that any harm the Student will suffer if payment
for prospective private services is stayed will be
mitigated by the fact that the District can implement
the Student’s educational placement with their own
staff. Importantly, the District points out that the ALJ
did not conclude that the District was incapable of
providing appropriate services. The potential harm in
requiring the District to pay for private services
outweighs the potential harm to the Student and her
Parents.
Third, the Court agrees with the District that the
public interest is served by minimizing unnecessary
expenditure of public funds and that any unnecessary
expense will affect the District’s ability to serve its
student population at large. The Court recognizes and
acknowledges the public interest promoted by the
IDEA. However, it is not in the public interest to
spend upwards of $200,000 in past and prospective
costs to pay for private services when the District
employs specialists who are licensed and qualified to
provide those services to the Student.

60a
Finally, Plaintiff argues that it is likely to succeed
on the merits of its challenge to the Decision.
Defendants disagree and argue that the District is
unlikely to prevail because the Decision is wellreasoned, presumptively correct, and entitled to
deference. The Court concludes that this particular
factor weighs slightly in favor of injunctive relief. The
merits of this case are complex and the record is
voluminous, making a full analysis of the merits more
properly addressed at a later stage of litigation.
However, even at this early stage, the District’s
challenges to the Decision have merit in that they
have raised substantial questions regarding the
propriety of ALJ’s order, and that those questions call
for a more deliberate investigation. Specifically, the
District argues that the ALJ erred in ordering
reimbursement of outside professionals hired by the
Parents because the underlying conclusions
supporting the ALJ’s order on reimbursement were
erroneous. For example, the District explains that it
did not conduct required classroom observations
because the Student was at home nearly every day
and rarely attended school, and that the absence of
classroom observations and a functional behavior
analysis were harmless because the Student did not
meet the other eligibility criteria. 4 In addition, the
District argues that the ALJ exceeded his authority
by ordering, as compensatory education, the District
4

The District evaluated the Student, but found no eligibility,
for possible special eligibility in Autism Spectrum Disorder
(“ASD”), Emotional and Behavioral Disorder (“EBD”), and Other
Health Disability (“OHD”), and within the OHD category,
evaluated the Student for ADHD and Generalized Anxiety
Disorder.

61a
to pay for private consultation and future services
because there was no evidence that the District staff
are incapable of providing the mandated services.
The Court declines to make any definitive finding as
to the likelihood of success on the merits, except to
note that the District’s arguments have significant
merit and deserve additional and thorough
consideration. Even without a finding of a strong
likelihood of success on the merits, the Court
concludes that a temporary stay is warranted because
the factors of irreparable harm, public interest, and
balance of the harms all weigh heavily in favor of a
stay.5 On balance, the Court concludes that equitable
considerations favor an injunction.
CONCLUSION
The Court grants the District’s motion and
temporarily stays the enforcement of the Decision
insofar as it imposes any requirement on the District
to expend public funds to pay for past or future private
services. Of course, the Parents are free to continue to
contract with private providers and could seek
reimbursement should they prevail in this lawsuit.
Hopefully, the implementation of the IEP and the
resulting services provided by the District will meet
the Student’s educational needs. In addition, the
5

The Eighth Circuit has explained that the “equitable nature
of the proceeding mandates that the court’s approach be flexible”
and has rejected “an effort to apply the probability [of success]
language to all cases with mathematical precision.” Dataphase
Sys., Inc., 640 F.2d at 113. Thus, “where the balance of other
factors tips decidedly toward plaintiff a preliminary injunction
may issue if movant has raised questions so serious and difficult
as to call for more deliberate investigation.” Id. Such is the case
here.

62a
Court believes that it is in the bests interests of the
parties to resolve this case quickly. Consistent with
the Court’s remarks at the hearing, the parties are
directed to contact Magistrate Judge Brisbois’
chambers to set a date for a scheduling conference
with priority. The Court also commits to giving this
matter calendar priority.
ORDER
Based on the foregoing, and on all of the files,
records, and proceedings herein, IT IS HEREBY
ORDERED that:
1. The District’s Motion for a Temporary Restraining
Order
and
Preliminary
Injunction
Staying
Enforcement of Administrative Decision (Doc. No. [6])
is GRANTED as to the following provisions:
a. The requirement that the District
reimburse the Parents $21,208.80 for costs
associated with independent educational
evaluations conducted by privately hired
evaluators Dr. Read Sulik, Dr. Richard Ziegler,
Wendy Selnes, and Heather Lindstrom;
b. The requirement that the District
reimburse the Parents $2,430 for the
assessment conducted in May 2017 by Dr.
Denise Reese;
c. The requirement that Dr. Sulik and
Lindstrom be invited to all quarterly IEP
meetings and be reimbursed for their time
participating in such meetings;
d. The requirement that the District
reimburse the Parents for the cost of a private
program provided by Lindstrom since January
5, 2018 and for future services;

63a
e. The requirement that the Student’s IEP
include a placement in a “program identical” to
the program currently provided by Lindstrom;
and
f. Any alleged requirement that a “program
identical” to Lindstrom’s program must also
include involvement by Dr. Ziegler and Selnes
in IEP meetings from now until the Student
graduates.
Dated: April 25, 2018 s/Donovan W. Frank
DONOVAN W. FRANK
United States District Judge

64a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______
No. 19-1269
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Appellant,
v.
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Appellee.
_______
MINNESOTA SCHOOL BOARDS ASSOCIATION
Amicus on Behalf of Appellant(s),
COUNCIL OF PARENT ATTORNEYS AND ADVOCATES,
INC., ET AL.,
Amici on Behalf of Appellee(s).
_______
No. 19-1336
_______
INDEPENDENT SCHOOL DISTRICT NO. 283,
Appellee,

65a
v.
E.M.D.H., a minor, by and through her parents and
next friends, L.H. and S.D.,
Appellant.
_______
COUNCIL OF PARENT ATTORNEYS AND ADVOCATES,
INC., ET AL.,
Amici on Behalf of Appellant(s).
_______
Appeal from U.S. District Court for the District of
Minnesota
(0:18-cv-00935-DWF)
(0:18-cv-00935-DWF)
_______
August 5, 2020
_______
ORDER
_______
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
August 05, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

